No.19-675
INTHE

,hpretttt Qtnurt nf t!Je lluiteh &tut.es
et al.,
Petitioners,

BANK OF AMERICA CORPORATION,

V.

CITY OF MIAMI, FLORIDA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Daniel P. Kearney, a member of
the bar of this Court, certify that the accompanying Brief for Amici Curiae The
Chamber of Commerce of the United States of America, American Property Casualty
Insurance Association, and Business Roundtable in Support of Petitioners contains
3,928 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
Executed on December 26, 2019.

~~~
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
daniel.kearney@wilmerhale.com

